<html>
<title> - TO PROMOTE TRANSPARENCY, ACCOUNTABILITY, AND REFORM WITHIN THE UNITED NATIONS SYSTEM, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 TO PROMOTE TRANSPARENCY, ACCOUNTABILITY, AND REFORM WITHIN THE UNITED 
                 NATIONS SYSTEM, AND FOR OTHER PURPOSES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2829

                               __________

                            OCTOBER 13, 2011

                               __________

                           Serial No. 112-93

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-666PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Markup of

H.R. 2829, To promote transparency, accountability, and reform 
  within the United Nations System, and for other purposes.......     2
  En bloc amendments to H.R. 2829 offered by the Honorable Ileana 
    Ros-Lehtinen, a Representative in Congress from the State of 
    Florida, and chairman, Committee on Foreign Affairs; the 
    Honorable Gerald E. Connolly, a Representative in Congress 
    from the Commonwealth of Virginia; and the Honorable Jeff 
    Fortenberry, a Representative in Congress from the State of 
    Nebraska.....................................................   157
  Amendment in the nature of a substitute to H.R. 2829 offered by 
    the Honorable Howard L. Berman, a Representative in Congress 
    from the State of California.................................   180

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California: Material submitted for the record.....   232
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................   242

                                APPENDIX

Markup notice....................................................   250
Markup minutes...................................................   251
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   253

 
 TO PROMOTE TRANSPARENCY, ACCOUNTABILITY, AND REFORM WITHIN THE UNITED 
                 NATIONS SYSTEM, AND FOR OTHER PURPOSES

                              ----------                              


                       THURSDAY, OCTOBER 13, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:29 p.m. in room 
2172, Rayburn House Office Building, Hon. Ileana Ros-Lehtinen 
(chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    Before moving to today's business I would like to begin by 
offering the committee's condolences to the families of the 
three U.N. peacekeepers who were killed patrolling a refugee 
camp in northern Darfur on Monday. These individuals gave their 
lives in the pursuit of peace, and it is appropriate to honor 
their memory by working to strengthen the institution in which 
they served.
    Now, pursuant to notice, the committee meets today to mark 
up H.R. 2829--my age and Howard Berman's age, right? I am 28 
and you are 29, more or less--the United Nations Transparency, 
Accountability, and Reform Act of 2011. Members may have 5 
legislative days to submit for the record remarks on today's 
bill or amendment.
    Without objection, the bill is considered as read and is 
open for amendment at any point.
    [H.R. 2829 follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Furthermore, without objection, the 
following amendments which were provided to members previously 
and are in your packet shall be considered as read and deemed 
adopted en bloc: Ros-Lehtinen amendment 92, the Manager's 
amendment, amendments 102, 103, and 104 offered by Mr. 
Connolly, amendment 83 offered by Mr. Fortenberry; and, 
finally, without objection, the bill text as amended by the en 
bloc shall be considered the original base text for the markup.
    [The information referred to follows:]<greek-l>Ros-Lehtinen 
amendment deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Ros-Lehtinen. I will now recognize myself for both 
the bill, as amended, and on the substitute amendment to be 
offered by my friend, the ranking member.
    Let me briefly reiterate some of the reasons why this bill 
is so needed. Last year, the U.S. contributed a record $7.7 
billion to the U.N., 21 percent more than 2009; as the report 
of the Office of Management and Budget states in their report 
to Congress.
    The administration's own Ambassador for Management and 
Reform, Joseph Torsella, has said, ``For a decade now, the 
United Nations' regular budget has grown dramatically, 
relentlessly, and exponentially.''
    Now, as America struggles to pay their bills and put food 
on the table, U.N. employees are about to receive another pay 
hike. The administration has rightfully urged the U.N. to cut 
its budget and cancel the pay increase, but the U.N. will 
actually be increasing its budget in the next 2 years. As 
Ambassador Torsella said, this budget increase ``does not 
represent a break from business as usual but, rather, a 
continuation of it.''
    And what is it that we are paying for? A U.N. Human Rights 
Council that includes such gross human rights violators as 
China, Russia, Saudi Arabia, and its vice chair, Cuba.
    Two years after the administration joined the Council, the 
Council still has undergone zero fundamental reforms, continues 
to pass resolution after resolution condemning Israel, and its 
permanent agenda item on Israel remains in place. We are paying 
for the Durban process, which has been hijacked to spread anti-
Israel and anti-Semitic venom.
    Then there is the U.N. Conference on Disarmament recently 
chaired by North Korea. So serial proliferator North Korea 
presided over the U.N.'s disarmament body; and Iran, a regime 
which stones women to death, is a member of the U.N. Commission 
on the Status of Women.
    We are paying for a U.N. that just appointed as the head of 
its Kosovo mission an individual involved in the infamous ``Oil 
for Food'' scandal and a U.N. that goes after whistle-blowers 
while protecting the corrupt.
    Why do we bear the financial burden for this? Every year 
scores of member countries that contribute almost nothing to 
the U.N. vote together to pass the budget. Then they pass the 
cost on big donors like the United States, which is assessed a 
whopping 22 percent. In contrast, China pays just 3 percent.
    We need a game changer. We will never achieve lasting, 
sweeping reforms if the U.S. keeps paying in full what the U.N. 
dictates to us with no consequences for the U.N. failures.
    It is time to leverage our funding to achieve lasting U.N. 
reform by passing this U.N. reform bill. This bill seeks to 
shift the funding basis for the U.N.'s regular budget to 
voluntary contributions so that American taxpayers can choose 
how much of their hard-earned money goes to the U.N. and what 
it is spent on. A shift to voluntary funding will help end the 
U.N.'s entitlement culture, forcing it to perform better and 
cut costs in order to justify its funding.
    The best-performing U.N. bodies are usually the ones funded 
voluntarily, like UNICEF and the U.N. High Commissioner for 
Refugees. That's why the bipartisan Gingrich-Mitchell report 
recommended shifting more U.N. programs to voluntary funding.
    The Secretary of State sent me a letter yesterday opposing 
our bill. The Secretary claims that if we move to a system of 
voluntary funding it will hurt our soldiers in Afghanistan and 
Iraq because other member states won't do the burden sharing to 
pay for U.N. missions in those countries. Does the 
administration have such little faith in our allies and in our 
diplomacy, which they pride themselves on, to think that they 
would not share the burden of fighting Islamic extremists 
unless the U.N. forced them to? And given that the U.S. paid 
billions and billions of dollars to the U.N. last year, I think 
it is clear who is actually carrying the burden without any 
say: The U.S. taxpayer.
    On the ranking member's amendment in the nature of a 
substitute, which he will introduce shortly, regrettably the 
substitute is just that, a substitute for real reform. On each 
area that it addresses, the main prescription is rhetoric, but 
no real consequence for U.N. inaction. The substitute states 
that the administration should take the status of reform 
efforts at voluntarily funded U.N. bodies into account when 
determining how much to contribute to those bodies.
    I believe this is an acknowledgment of just how effective 
voluntary funding is at achieving reform. Yet the ranking 
member opposes the proposal in the underlying bill to shift the 
basis for the U.N. regular budget to voluntary contributions, 
which increases our leverage to achieve reform throughout the 
U.N. system as well as will enable us to fund those programs 
that actually work and advance U.S. interests. Leveraging our 
contributions as the underlying bill proposes can help stop Abu 
Mazen's dangerous Palestinian statehood scheme. By contrast, 
the substitute amendment offers no consequences if any U.N. 
body upgrades the Palestinian status.
    Turning to peacekeeping, like Mr. Berman, I value the 
contributions that peacekeepers have made to global peace and 
security, including in Haiti, but the substitute fails to 
address the urgent need for reforms to restore the reputation 
of U.N. peacekeeping, particularly in light of recent reports 
of sexual abuse of minors by peacekeepers in Haiti and the 
illegal exploitation of natural resources by U.N. employees in 
Congo. I ask my colleagues to oppose this substitute and settle 
for nothing less than real reform by supporting the underlying 
bill.
    I will now ask the clerk to report the Berman amendment in 
the nature of a substitute before I yield to the ranking member 
for his remarks on today's business.
    Ms. Carroll. Amendment in the nature of a substitute to 
H.R. 2829 offered by Mr. Berman of California.
    Chairman Ros-Lehtinen. Thank you. Without objection the 
Berman substitute is considered as read.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. My friend, the ranking member, is 
recognized for up to 7 minutes to speak on his amendment and 
the underlying bill. Mr. Berman.
    Mr. Berman. Well, thank you very much, Madam Chairman.
    I am offering the amendment in the nature of a substitute 
at this point to--everybody should be happy to try and conflate 
a speech against the bill and a separate speech in favor of the 
amendment in the nature of a substitute into one with the hope 
that we can finish our work on this bill by the time we have to 
recess for the joint session.
    Madam Chairman, this so-called reform legislation is being 
marketed as a way to combat efforts by the Palestinians to gain 
statehood at the U.N. and put a stop to some of the other 
repugnant anti-Israel practices at the world body. But that is 
really false advertising. Those issues, as important as they 
are, are just a smokescreen the majority is using to obscure 
its real agenda. In fact, the true purpose of the bill is to 
end U.S. participation in the U.N. and, in the process, deal a 
fatal financial blow to the world body.
    Title I of the legislation states that the U.S. must 
withhold 50 percent of our assessed contributions unless the 
President certifies that at least 80 percent of the entire U.N. 
regular budget--80 percent of what is now all paid for by 
assessed contributions--is funded only by voluntary 
contributions within 2 years.
    We all know that it would be impossible for the President 
to make such a certification. Among other things, it would 
require a revision of the U.N. charter and a renegotiation of 
the treaty establishing the U.N. It is not going to happen.
    Even if the U.N. Human Rights Council were truly reformed, 
the Goldstone report was completely repudiated, and the U.N. 
instituted more meaningful audit and oversight disclosure 
requirements, this bill would still defund the U.N. if they 
didn't adopt an 80 percent voluntarily funded regular budget.
    In July, this committee voted to slash U.N. contributions 
to the U.N. by 25 percent. Why not just have a straight up or 
down vote on making additional cuts, rather than going through 
this subterfuge?
    Madam chairman, this legislation is premised on the notion 
that withholding our U.N. dues can leverage meaningful change 
at the organization, but there is no evidence to support that 
argument. Previous attempts at withholding did not lead to any 
significant and lasting reforms. They only succeeded in 
weakening our diplomatic standing and influence and undermining 
efforts to promote transparency, fiscal responsibility, and 
good management practices in the U.N. system.
    For those reasons, the George Bush administration opposed 
the late Chairman Henry Hyde's U.N. bill which had no such 
feature. It was simply trying to make reforms in the U.N. by 
withholding dues. This one creates an impossible standard and 
says, if we don't meet it, we cut it by 50 percent.
    Madam Chairman, I want to say a few words about the 
contention that this bill is necessary to prevent the 
Palestinians from forging ahead with plans to unilaterally 
declare statehood at the U.N. or upgrade its membership in 
various U.N. entities.
    Current law already requires withholding of U.S. funds from 
any U.N. entity that grants full membership to the Palestinian 
Authority. As we saw last week, this threat of withholding was 
not particularly effective as the UNESCO Executive Board voted 
40 to 4, with 14 abstentions, to submit the question of full 
Palestinian membership to the full UNESCO membership.
    Frankly, I don't understand the logic of penalizing a U.N. 
organization for the votes of its member states. In fact, many 
of the states that are likely to support unilateral Palestinian 
moves at the U.N. would undoubtedly prefer that the U.S. 
withdraw from the organization. So one could argue that this 
bill would be rewarding them for bad behavior.
    A more effective approach would be to reduce or eliminate 
U.S. assistance to countries that vote against this at the U.N. 
on resolutions that only encourage the Palestinians from 
circumventing direct negotiations with Israel. This bill 
contains no such provision.
    Madam Chairman, all of us are familiar with the flaws and 
shortcomings of the U.N. The anti-Israel vitriol spewed from 
the committee on the exercise of the inalienable rights of the 
Palestinian people, the Human Rights Council's obsession with 
and biased treatment of Israel, and, in general, the 
organization's overlapping jurisdiction of agencies, 
duplication of services, and efficient procurement practices.
    But it is also important to recognize that the U.N. often 
plays an essential role in supporting American foreign policy, 
national security interests, U.N. peacekeepers. They separate 
warring parties, and they create conditions for reconciliation 
at a fraction of the cost of deploying U.S. military.
    The World Food Programme feeds the victims of famine in the 
Horn of Africa, the World Health Organization coordinates 
international efforts to prevent spread of infectious disease, 
and the U.N. Security Council has provided the legal basis for 
putting together a strong international coalition of countries 
determined to prevent Iran from developing nuclear weapons 
capability, a critical issue that we will discuss at tomorrow's 
hearing.
    Madam Chairman, I agree we need to keep the pressure on the 
U.N. to ensure that U.S. tax dollars are spent wisely. But 
trying to ram through this partisan piece of legislation is not 
the way to do it.
    I urge my colleagues to support the substitute amendment 
that I am offering. My substitute acknowledges the simple 
reality: We can't legislate change at the U.N. like we can in 
the executive branch. Instead, it seeks to provide direction to 
and strengthen the administration's ability to push for greater 
transparency, accountability, and ethical standards at the U.N.
    They will do this by enshrining in law the State 
Department's U.N. Transparency and Accountability Initiative, 
originally conceived by former U.S. Ambassador for U.N. 
Management and Reform, Mark Wallace, a George W. Bush 
appointee, which will strengthen our ability to monitor U.S. 
Progress on reforms. It would also mandate rigorous reviews and 
monitoring programs for various peacekeeping efforts and make 
it the policy of the United States to work with the U.N. to 
institute a number of needed management reforms.
    My amendment will not get the U.S. out of the U.N., but it 
will be a far more effective tool for promoting real reform and 
countering anti-Israel bias in the U.N. I urge my colleagues to 
support this substitute, defeat the underlying bill, and yield 
back my 30 seconds.
    Chairman Ros-Lehtinen. Thank you very much. I thank my good 
friend from California for his statement.
    I now would like to recognize Ms. Buerkle of New York, who 
served as the congressional representative for the majority to 
the United Nations. Ms. Buerkle is recognized.
    Ms. Buerkle. Thank you very much, Madam Chairman.
    I just want to make a couple of comments with regards to 
really a myth that withholding U.N. assessments doesn't work. 
Money, I think, is by far the strongest leverage we have at the 
U.N.; and, unfortunately, sometimes it is the only language 
that they understand and they respond to.
    In 1980, Congress withheld funding until the U.N. 
implemented budget reforms. That effort was successful until we 
stopped conditioning funding on reform.
    Again, in 1989, Yasser Arafat pushed for the PLO to gain 
full membership in U.N. entities as a way to gain de facto 
recognition for a Palestinian state. The United States made 
clear at that time that we would cut off funding to any U.N. 
entity that upgraded the status of PLO, and at that time the 
PLO's effort was stopped dead in its tracks.
    In the 1990s, when U.N. regular and peacekeeping budgets 
were skyrocketing, Congress enacted the Helms-Biden agreement. 
We withheld our dues and conditioned repayment on key reforms. 
When the U.N. saw we meant business, the members agreed to 
reform, saving our taxpayers dollars.
    Even the Obama administration enforcing U.S. law continues 
to withhold assessed contributions to certain anti-Israeli U.N. 
agencies like the Division for Palestinian Rights.
    Smart withholding is the most effective tool we have to 
encourage the U.N. to reform. Money does talk and, 
unfortunately, sometimes it is the only thing the U.N. will 
listen to.
    Thank you, Madam Chairman. I yield back.
    Chairman Ros-Lehtinen. I thank the gentlelady.
    Mr. Payne is recognized to speak on the Berman amendment 
and/or the underlying bill.
    Mr. Payne. Thank you very much, Madam Chair.
    I support, strongly support the Berman amendment and oppose 
H.R. 2829. The United States is currently working with the 
United Nations to address some of the world's most pressing 
challenges, from the humanitarian need of vulnerable 
communities in the Horn of Africa and Haiti to political crises 
and violence in Libya and Sudan. Now is not the time to 
disengage from the world body. Indeed, it is more important 
than ever that America maintains its long-standing commitment 
to global leadership and engagement.
    Through the United Nations, we are able to extend our 
global reach and advance our national security interests. H.R. 
2829 would severely limit the President's ability to support 
new or expanded U.N. peacekeeping missions. Anyone that has 
closely watched Africa over the past decade knows that the 
United Nations' peacekeepers have played a pivotal roll in 
protecting civilians, securing peace and supporting democratic 
reforms across the continent.
    The United Nations' mission in Liberia was established in 
2003 to support the implementation of the cease-fire agreement 
and the peace process. Two days ago, on October 11th, the 
Liberian people went to the polls and peacefully voted for the 
second time in the nation's history.
    In March 2005, the U.N.--United Nations mission in Sudan 
was created to support and implement the comprehensive peace 
agreement between the Government of Sudan and the Sudan 
People's Liberation Movement, PLM.
    Earlier this year, the people of southern Sudan voted in an 
election deemed free and fair by the international community. 
On July 9th, I was in Juba as south Sudan became the world's 
newest nation.
    Last year, incumbent Laurent Gbagbo defied the democratic 
will of his people and refused to step down as President of 
Cote d'Ivoire. What followed was a full-scale military 
conflict. With international support, the victor, President 
Ouattara, was installed. Following months of fighting, Gbagbo 
was finally captured; and the democratic will of the 
d'Ivoiriens were realized with the help of the United Nations' 
troops.
    Democracy and peace, along with economic security, are 
major deterrents to conflicts. Supporting peace is also more 
cost effective than unilateral intervention.
    The United Nations is the biggest tool in our democracy 
promotion and peacekeeping toolbox. Ranking Member Berman's 
substitute amendment addresses all of our key concerns with the 
United Nations without diminishing our ability to influence 
necessary reforms. I urge my colleagues to support the Berman 
amendment and oppose the underlying bill.
    Thank you very much, and I yield back the remainder of my 
time.
    Chairman Ros-Lehtinen. I thank the gentleman from New 
Jersey.
    I am pleased to yield to speak on the Berman amendment or 
the underlying bill--and/or--to Mr. Burton.
    Mr. Burton. Thank you, Madam Chairwoman; and I really 
appreciate you moving this bill.
    The U.N. is really our buddy. They vote with us almost 
never. We built a building for them in New York. The 
Rockefellers built it. We pay for the police to protect 
everybody when they come to the New York to the cost of 
billions of dollars over the years. And let's just look at what 
we have got.
    We pay 22 percent of the U.N. regular budget and 27 percent 
of the U.N. peacekeeping budget. In dollar terms, the 
administration's budget for this year, Fiscal Year 2011, is 
$516.3 million to the U.N. regular budget and $2.182 billion 
for the peacekeeping budget. According to OMB, U.S. 
contributions for the U.N. system were more than $6.347 
billion--billion--in 2009.
    I don't know if anybody realizes, but we have some 
financial difficulties here in the United States.
    Now let's just take a look at what the U.N. has done.
    In August 2011, Cuba, which has provided biotechnology to 
other rogue regimes which are closely allied with serial 
proliferators--North Korea, Iran, and Syria--Cuba assumed the 
presidency of the Conference on Disarmament. Do you believe 
that?
    In 2011, June, North Korea, a serial nuclear proliferator 
that secretly developed nuclear weapons and continues to 
violate multiple U.N. Security Council sanctions resolutions, 
assumes the presidency of the Conference on Disarmament. You 
get that?
    Saudi Arabia in November 2010, which severely restricts the 
human rights of Saudi women--and I went over to try to get some 
American women out of there who were held against their will--
they were elected to the Board of U.N. Women.
    Cuba, a gross human rights violator, in 2010 is named vice 
chair of the U.N. Human Rights Council. Did you get that, Madam 
Chairwoman?
    Chairman Ros-Lehtinen. I did.
    Mr. Burton. They are vice chairman of the Human Rights 
Council, Cuba. How many people do they have in prisons over 
there and torture people and everything? Our old buddy Castro.
    Iran in 2010, which severely restricts the human rights of 
Iranian women and has stoned women to death, is announced as a 
member of the U.N. Commission on the Status of Women.
    We are giving these people billions of dollars. They never 
work with us. I don't even know when why we give them anything. 
I really don't. It is crazy.
    Now, if we want to help people who are starving in Africa 
and so forth and work with some of the countries to help 
provide assistance to them, that is one thing. But the U.N. is 
never, has never, and never will be a good friend to the United 
States. They are pointing every kind of crackpot regime, from 
Cuba to North Korea to Saudi Arabia to Cuba to Libya to Iran, 
to leadership positions; and we continue to give them our 
money. I think the American taxpayers, if they knew all this, 
would say this is a bunch of bull.
    Chairman Ros-Lehtinen. Thank you very much, and the 
gentleman yields back. It is a wonderful precedent that Mr. 
Berman started. They are yielding back the time.
    So pleased to yield to the gentleman from New York, Mr. 
Ackerman, to speak on the Berman amendment and/or the 
underlying bill.
    Mr. Ackerman. I get it, too. I say I get it, too. I got all 
of it.
    And the reason why people are yielding back their time is 
because they don't have enough good things to say about the 
bill that is in front of us, not a lot of real merit to it.
    Let me correct a couple of things. We didn't give anybody 
the money to build the United Nations. It was given by a great 
Republican businessman from New York, Mr. Rockefeller, and his 
family; and that money built the United Nations out of a vision 
that this Republican had that the world could be a better place 
if people came together and had a place to speak and talk and 
meet and the countries of the world could talk out their 
grievances instead of going to war. It has not always been 
successful, but it is the only thing we have got going for us 
to try to make that happen.
    The previous speaker mentioned that we pay for the police 
to police the United Nations. I will just call to your 
attention we are supposed to pay for the police to reimburse 
them, but we don't. And Mr. Berman had the good sense to 
correct that or try to correct that by putting in his 
substitute language that both myself and Peter King from New 
York have been working on for years that would require the 
prompt payment of the amount of money that is supposed to be 
reimbursed to the City of New York, which has laid out millions 
and millions and millions of dollars over the years and has not 
been paid back. So if you want to correct that injustice that 
was just cited, then vote for the substitute.
    So we want to make the dues voluntary, and that way we can 
have our say in how it gets spent. Wouldn't that be just? That 
makes as much sense as making income tax voluntary so we can 
pick and choose what we want to pay for if we didn't like this 
war or that war or we don't like some kind of program. Or if we 
really don't like Medicare, don't pay that part, or don't like 
Social Security or health care or whatever it is you don't 
like. You don't like Congress, don't pay the part of your taxes 
that pays us. And see where we get and how logical that would 
be to the American people or any other people to make funding 
optional, voluntary so we can pick and choose.
    Now the United Nations is not supposed to be our pal. We 
don't own it. It is not a branch of the American Government or 
an arm of the American people. It is where all the people of 
the world express their grievances and argue things that we 
disagree about. If we agreed on everything, we wouldn't need 
the United Nations. But we don't.
    And the fact that bad countries that do bad things at times 
in bad areas of human behavior get to chair committees is not 
because they have been chosen because they are the admirable 
party in women's rights or human rights or whatever it is. It 
is because they rotate these things among regions of the world, 
and then the region gets to choose if they are up for the 
chairmanship of that committee. And sometimes it is a bad guy's 
turn. Get it? It is not because these people are exemplary. It 
is ironic that they get to chair these things, but that is what 
happens when you are a country.
    It was mentioned that we should withhold because other 
countries don't pay as much as we do, other countries are not 
as big, as big as we are or as wealthy as we are, despite our 
problems. And United Nations isn't an entitlement, and its 
programs aren't entitlements. But I would like to speak about 
entitlements.
    There is not a serious player in Washington, DC--the good 
thing is this bill is never going to see the light of day. 
Nobody even suspects the Senate would ever take it up, much 
less pass it. That is the good thing about it.
    But there is an entitlement here. It is the entitlement 
that my grandchildren, the entitlement that they grow up in a 
world of peace. It is the entitlement of Israeli people's 
grandchildren and Palestinian people's grandchildren.
    There is only one hope, because we are having a lot of 
difficulty of doing this on a bilateral basis. And that hope 
still rests in the United Nations with all its flaws and all of 
the bad things and inconsistencies that occur there. And to 
disguise this as this is for the benefit of the Israelis is 
sad, but laughable. The last thing the Israelis would like to 
see is the United States and the President of the United 
States, the defender-in-chief of Israel, President Obama, not 
to be in the United Nations so he and we could veto bad things 
that would happen in the United Nations were we not there, both 
for Israelis and others as well.
    I would urge the passage of the substitute, because it is a 
darn sight better than the underlying bill which, when we do 
pass it, isn't going anywhere anyway. So that is the only 
consolation that I have.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much.
    The gentleman from New York, Mr. Rohrabacher of California, 
is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    Gee, I wonder if the Rockefellers got a tax advantage when 
they gave all that property to the United Nations. I think it 
is very fitting and very apropos that the Rockefellers were so 
involved----
    Mr. Ackerman. Would the gentleman yield?
    Mr. Rohrabacher. Not yet, because I have a statement to 
make.
    Mr. Ackerman. I thought you wanted an answer.
    Mr. Rohrabacher. If there is time afterwards, I would be 
happy to.
    Let me just note that I think the Rockefellers represent 
the global elite that goes hand in hand with the anti-American 
spirit that is so prevalent in the United Nations.
    Let's just get down to what this is all about today. The 
underlying bill that we are talking about, that the chairman 
has spent considerable time developing, is something that the 
American People, when they find out about it, are going to be 
very supportive of.
    The fact is that at a time when the level of deficit 
spending is so out of control that it is heading our country to 
an economic calamity the idea of reducing expenditures, the 
expenditure of American tax dollars on U.N. programs that are 
not in our national interest, is not just a good idea, it is a 
great idea, and so just the underlying idea that we are going 
to do that, that is terrific.
    Let's look at some other major issues that we are deciding 
today, and my colleague from New York just mentioned it in 
passing, but that is that our contributions to the United 
Nations are on a voluntary--should we want to put them on a 
voluntary basis. Today, they are not on a voluntary basis, and 
the bottom line is the American people believe that money that 
we take from them should not be given to someone else to spend 
in any way that other body wants, even if it is against our 
interest, and let us note that the United Nations is not a 
sovereign body and has no legitimate authority to assess a tax 
or assess a demand of the American people.
    When my colleague mentioned about when it would make the 
income tax voluntary, that is what scares people. Because there 
are some people who would like to give the United Nations the 
power to tax and the authority to take money away from the 
American people and spend it exactly the way they want to.
    Just the fact that the chairman and those of us who support 
her are trying to make sure that if we are taxing our people at 
a time of crisis when our people are out of work that their 
money isn't going to go to be spent on anti-American and anti-
democratic projects that have been put in place by the United 
Nations, we are following not only the will of the people but 
we are following what the Constitution is all about.
    The Constitution gives us, the Congress, authority to 
control the purse strings, and we are the ultimate power when 
it comes to the expenditure of those tax dollars, and it should 
be. When we give them to an organization, it should be on a 
voluntary basis, so if that organization gets too far out and 
starts appointing Iran to head up a commission on the status of 
women, that maybe that we can help put pressure on them not to 
make those kind of decisions.
    Now, my colleague from New York pointed out that this idea 
that the chairmanship of these types of commissions and 
committees just are there. You know, they happen to go into the 
hands of these dictators and oddballs and lunatics, and we 
should just say, well, that is because it rotates; they really 
didn't have a choice. Get it?
    Well, I want you to get something. The bottom line is, if 
they have a system that is set up that puts these gangsters in 
charge of policy, then the system is wrong. There is something 
wrong with that system, and it should be corrected, and as long 
as we maintain that we can voluntarily contribute or not, we 
will have the pressure we need to try to reform the system so 
that gangsters, that Nazis, don't get put in charge of human 
rights commissions.
    I would suggest that what we have before us is something 
that constitutionally is very important, as well as practically 
is very important, and practically we cannot continue this 
level of deficit spending. If we have to bring it down, let's 
bring it down this way. Quit financing people who hate us, and, 
number two, let's make sure U.S. contributions are voluntary.
    Thank you.
    Chairman Ros-Lehtinen. I thank the gentleman for his 
statement.
    I am pleased to yield to the ranking member on the 
Subcommittee on Western Hemisphere, the gentleman from New 
York, for the Berman substitute or the underlying bill.
    Mr. Engel. I thank the chair for her courtesy, gracious 
courtesy as always.
    And, look, I am certainly not going to make excuses for the 
United Nations. I share the frustrations many of my colleagues 
have articulated on the other side of the aisle and that people 
on this side of the aisle feel as well.
    I will vote for the Berman substitute, but I understand the 
chair's sincere frustration in wanting to change the way the 
U.N. and some of these other countries take us for granted, 
spit in our face, and think they will have American money to 
just go around and kind of use it to whet their mouth to spit 
right back in our face.
    The bottom line, though--and this is what I am going to be 
listening to in this debate this afternoon--is what is in our 
best interests, what is in the best interests of the United 
States of America. Certainly I feel the frustration and would 
like to say, you know what? I am taking my marbles, and I am 
going home. Because this is an organization that cannot be 
fixed.
    But, on the other hand, I have to question and say, are we 
better off being there where we can have some influence, as we 
are trying to have now with this ridiculous Palestinian 
universal declaration of statehood, where we can have some 
influence, where we are putting together the votes on the 
Security Council so that they, the Palestinians, do not have 
the nine votes which would force the United States to veto it? 
Are we better off being there and preventing bad things from 
happening or would we be better off not being there? I think a 
very good case can be made that we are better off being there.
    Now, it doesn't mean--I don't think it means that we should 
just continue to play business as usual and provide the money 
for them to do all these awful things that my colleagues have 
mentioned. So I think it is a balancing act. I think we have to 
decide what is in our best interests.
    Some of my colleagues have suggested, for instance, that 
we--and this committee voted along party line vote to withdraw 
from the OAS, the Organization of American States, with all the 
Republicans voting yes and all the Democrats voting no. I 
happen to believe that the Organization of American States, 
although very flawed, is a hell of a lot better with United 
States' participation, because that is the one organization in 
the Western Hemisphere which we can influence. We have an 
extreme influence in that organization.
    And there are other organizations which exclude the United 
States, like UNASUR and MERCOSUR, where we have no influence. 
Do we want to really destroy the OAS and have these other 
organizations become preeminent?
    I sort of feel that way a little bit about the United 
Nations. I don't know if we kind of walk away what does that 
do.
    Michael Bloomberg, our mayor in New York City, has urged us 
to defeat the legislation, because he is looking at it from a 
point of view of the New York economy; and the United Nations 
obviously enhances the stature of New York and helps the New 
York economy as well.
    But I do think, I do think, that, whether or not the 
chair's legislation becomes law or not, we in the United States 
have got to give this issue a good hard look. Because we can 
all recite all the outrages in the United Nations that have 
happened where our country is treated horrifically while they 
take our money and kind of laugh in our face.
    So I want to say, Madam Chair, I share your frustration and 
I know how you feel and I share the frustration. The question 
is, what is the best way to deal with that and would it be in 
our best interest to withdraw funds at this point and have 
voluntary contributions? I am going to be listening for the 
rest of the afternoon.
    Chairman Ros-Lehtinen. Thank you very much. Thank you.
    And the ranking member and I have a gentleman/gentlelady 
agreement to see if we can wrap it up before the Joint Session 
because there are many activities related to the South Korean 
President's address. And with that in mind, I am pleased to 
yield to Mr. Fortenberry for any remarks that he might have on 
the amendment.
    Mr. Fortenberry. Thank you, Madam Chair. I probably won't 
take the whole time.
    Madam Chair, first, let me say this. I believe that the 
United States should be an active participant in multilateral 
institutions. However, of late, we have seen the rogue regimes 
of both Cuba and North Korea assume leadership roles at the 
United Nations. As it was mentioned, North Korea took the 
presidency of the U.N. Conference on Disarmament in spite of 
its nuclear weapons proliferation. Cuba, with its massive human 
rights violations, gallingly took vice chair of the U.N. Human 
Rights Council last year.
    Madam Chairman, these countries need to order their own 
houses before they are given the jurisdiction over panels 
affecting the rest of the world. Giving a country like Cuba or 
North Korea chairmanship over disarmaments and human rights is 
a farce.
    It is true that the United States has done a lot--the 
United Nations, excuse me, has done a lot of good across time. 
In its proper role, the United Nations is one of the strongest 
multilateral institutions the world has seen; and it does allow 
meaningful space for dialogue for the responsible community of 
nations on all measures of crises throughout the world. But 
when the United Nations steps out of its lane and employs 
divisive tactics of ideological aggression or when it appears 
to condone gross human rights violations by granting presidency 
or chairmanships to bad actors, that good is tarnished.
    Madam Chair, an amendment I am offering today tries to 
restore some integrity to the United Nations. It directs the 
United States' permanent representative to the United Nations 
to use the voice, vote, and influence of the United States to 
ensure that no representative of a country designated by the 
Department of State as a tier 3 human rights violating country, 
one that does not fully comply with the minimum standards set 
forth by the Trafficking Victims Protection Act, shall preside 
as a chair or president of any United Nations panel.
    These are countries that not only do not comply with 
certain basic human rights standards that are the policy of our 
Government and are assessed by our own State Department but are 
not making any efforts to do so. These countries, again, must 
get their own houses in order before the international 
community grants them any authority on the global stage. I 
believe this is a responsible and reasonable use of our 
leverage as a country and will improve the overall mission of 
the United Nations.
    I thank the chair and the ranking member as well for 
agreeing to adopt this amendment.
    Chairman Ros-Lehtinen. Correct. We have adopted it as part 
of the en bloc.
    I thank the gentleman for the time and will now go to Mr. 
Connolly.
    Mr. Connolly. Madam Chairman, although, obviously, 
philosophically I sadly have a disagreement with the underlying 
premise of this bill, I want to thank you and your staff 
particularly for your accommodation on the en bloc amendments, 
particularly Doug Anderson of your staff and of course the 
ranking member as well. So thank you very much for your 
courtesy.
    Chairman Ros-Lehtinen. I love the brevity. Thank you so 
much. You are going to be recognized a lot from now on.
    Mrs. Schmidt is recognized.
    Mrs. Schmidt. Thank you.
    I really would like to speak to what I think are some of 
the positive benefits of this overall bill and really focus my 
points on the peacekeeping issue.
    There are a total of 16 vital and achievable reforms under 
the peacekeeping title, seven of which are required under the 
certification section of the underlying bill. Madam Chair, 
these seven reforms tied to the certification include the 
adoption of a uniform code of conduct that applies equally to 
all peacekeeping personnel, regardless of category or rank, 
training on and distribution of personnel copies of the code of 
conduct for all peacekeepers, signature of an oath by all 
personnel to abide by the code and assume personal liability 
for failure to do so, design and implementation of educational 
outreach programs to explain prohibited acts to host 
populations, creation of a centralized database to track cases 
of misconduct, adoption of a model memorandum of understanding, 
and, seven, establishment of an independent investigation and 
audit function for peacekeeping within the U.N. Department of 
Peacekeeping Operations and Office of Internal Oversight 
Services.
    Madam Chair, these reforms are reasonable, achievable, and, 
in fact, have been recommended by the U.N. itself. All seven of 
these reforms are consistent with the recommendations contained 
in the 2005 report by the special advisor on the prevention of 
sexual exploitations and abuse. All but one of these reforms, 
the oath, were specifically endorsed by the Special Committee 
on Peacekeeping.
    Additional far-reaching reforms will be required to make 
U.N. peacekeeping more efficient and effective, but for the 
purposes of this bill only the most critical and immediately 
achievable were addressed.
    Madam Chair, there is a profound sense of urgency when 
discussing these reforms, for they seek to protect innocents 
from unconscionable acts of sexual abuse and criminal 
misconduct, including corruption and the illegal exploitation 
of natural resources. Madam Chair, these acts do not occur in a 
vacuum. They occur when order has broken down and a permissible 
environment has been allowed to flourish. They demean the value 
of U.N. peacekeeping and offend the values enshrined in the 
U.N. charter. They perpetuate conflict rather than restore 
peace.
    Just as the peacekeepers owe a duty of care to the people 
they have been sent to protect, we owe a duty of care to the 
U.N. nations' peacekeeping. It is incumbent upon us as the 
greatest contributors to U.N. peacekeeping to do everything 
within our power to help stop these abuses and restore the 
sullied reputation of U.N. peacekeeping. And I commend you, 
Madam Chair, for advancing this in an efficient manner.
    Chairman Ros-Lehtinen. Thank you. I thank the gentlelady.
    We have three last speakers, and then we will move to the 
vote on the Berman substitute. Ms. Schwartz is recognized. 
Thank you.
    Ms. Schwartz. Thank you, and I will not take my full time, 
I hope.
    But I do want to just say that certainly I wanted to add my 
voice in opposition to the underlying bill that we are 
considering today and wanted to say, as drafted, that my 
concern, of course, is that it would poison the U.S. 
relationship within the U.N. that could eventually force our 
withdrawal from the United Nations. And while there are 
certainly areas where I would agree with the majority, the 
other side of the aisle, that there is a need for reform in the 
U.N., and we have discussed many of them at different times 
during the hearings here, but I believe, along with the ranking 
member, that using financial withholdings to advance a shift 
from assess to payments of voluntary--will only lead to 
additional frustrations within the U.N. and the weakening of 
our position in making some of the changes and reforms we like 
to see at the U.N. and, in fact, enhance other member states 
that we disagree with by giving them an even stronger 
consistent voice in the organization without our presence and 
without our objections.
    The U.N., as we have all talked about, was established as a 
forum for nations to confront our conflicts diplomatically and 
to collaborate on solutions to problems that affect a 
significant majority of member states. It has served as a 
significant multiplier for our own foreign affairs budget, 
allows the U.S. to advance our national security interests at a 
fraction of the cost in lives and money of sustained military 
operations.
    Just a comparison, last year the contribution made by the 
United States to the U.N. was roughly $450 million. It took the 
Department of Defense roughly 34 hours of operation in 
Afghanistan to spend that same amount of money. So it could 
certainly be perceived as money very appropriately spent.
    I just want to say, in a world of increasing global 
problems, it is shortsighted to walk away from an institution 
that has, with our direct involvement, been able to advance 
solutions to these problems.
    Most recently, the U.N. has been instrumental in imposing 
sanctions on Syria, Libya, and Iran; and we should certainly 
acknowledge the significant role the U.N. plays in successful 
peacekeeping and humanitarian efforts in critical post-conflict 
situations around the world.
    I appreciate the chairman's concern regarding the degree of 
favoritism displayed by members of the U.N. to the 
Palestinians. Nonetheless, Israel itself finds that it works 
within the U.N. to resolve certain issues. Our involvement as 
Israel's friend and ally plays an extremely important role in 
mitigating this hostility and advocating for fairness toward 
Israel within the U.N.
    So, again, I appreciate the need for reform. Nonetheless, 
the U.N. has proven to be invaluable for America and American 
leadership in the world. To abandon the U.N. would only 
embolden our adversaries.
    These sentiments are shared not only by our own current 
Secretary of State, but by the previous administration as well. 
Former Secretary John Bolton had come to the Hill on numerous 
occasions to testify against earlier iterations of this 
legislation over these same exact concerns. So, short of the 
ranking member's amendment in the nature of a substitute being 
agreed to, I will not be supporting this legislation.
    Chairman Ros-Lehtinen. I thank the gentlelady; and I am so 
pleased to yield to my Florida colleague, Mr. Deutch who, along 
with Ms. Buerkle, represents us so well as our delegates to the 
U.N.
    Mr. Deutch. Thank you very much, Madam Chair. Thank you as 
well for giving us the opportunity to debate these issues, 
transparency and peacekeepers.
    UNCHR, the Human Rights Council, serves in this anti-
Israel--pervasive anti-Israel bias need to be addressed. And I 
thank the ranking member for his amendment which addresses 
them, and I will support that amendment, but I cannot support 
this legislation.
    I wanted to focus, as some others have, on the specific 
issue that I spend so much time dealing with, which is this 
obsession that so many member states have with attempts to 
delegitimize the free and democratic state of Israel. There is 
no arguing that for years Israel has been subject to extreme 
bias by members of the United Nations, Durban, Goldstone. 
Israel has a permanent agenda item at the Human Rights Council. 
These must be condemned, and I join every member of this 
committee in doing so.
    But even after all of these events Israel has not walked 
away from the U.N., and neither should we. Neither should the 
United States. It is because of U.S. engagement that we are 
able to make advances. Since the administration decided to 
fully reengage at the U.N., we have created a long-term 
strategy to help normalize Israel status in and across the U.N. 
and a broader multilateral system. And our engagement serves 
not only as a benefit to advancing Israel as a legitimate 
member of the international community. It serves our interests, 
more importantly.
    We have worked to ensure that Israel has the opportunity to 
contribute fully to all U.N. institutions even as it continues 
to be singled out by some member states. We garnered enough 
support to defeat a resolution at the IAEA singling out 
Israel's nuclear program for rebuke. We worked with our ally 
Israel to support the appointment of Israelis to U.N. 
positions. Frances Raday was recently chosen as an expert 
member of the Human Rights Council's special working group to 
eliminate discrimination against women. We helped secure the 
passage of three Israel-sponsored resolutions on agricultural 
technology in the General Assembly. We have worked to improve 
Israel's status in multilateral bodies, including joining the 
OECD last year, a collection of the world's 30 top economies.
    Israel has chosen to play an active role in peacekeeping 
humanitarian missions. Israel is engaged at the U.N.; we should 
be as well. Thanks in part to efforts--U.S. efforts on its 
behalf, Israel will join the board of the U.N. Children's Fund 
and chair an economic and social council of that body in the 
coming months. These are the sorts of important steps we have 
taken.
    At the Human Rights Council it is true there are serious 
flaws. Efforts to delegitimize Israel are pervasive, and anti-
Israel resolutions are disproportionate, and the Human Rights 
Council is the best evidence of that. And we have to be 
critical, and we have to argue against it and be passionate in 
our opposition.
    But had we not scaled back our engagement at the U.N. 
during the last administration, the U.S. would have been at the 
table from the beginning, at the start of the Human Rights 
Council where we could have had a say in creating legitimate 
membership interests, standards that would have prevented some 
of the worst human rights abusers like Cuba and Libya from 
membership.
    Both the chairman's bill and the ranking member's 
substitute contain standards for Human Rights Council 
membership, but only the ranking member's amendment ensures 
that we are an active participant in bringing about reforms. 
The bottom line is, since U.S. involvement in the Human Rights 
Council, the U.S. has had a significant impact. Since we 
rejoined, our leadership led to the authorization of 
international mandates to closely monitor and address human 
rights situations in Iran, Libya, Syria, the Ivory Coast, 
Burma, North Korea, Cambodia, and Sudan.
    Perhaps most importantly, it was U.S. leadership that kept 
Iran and Syria from gaining seats on the Council. We helped 
establish a special rapporteur on human rights in Iran. We were 
there to speak out vehemently against the Goldstone report. We 
were there. We were showing leadership.
    That is what the United States always does. The United 
States doesn't turn and walk away from a battle. We have to 
stand up for what we believe in, and we have to do it in a 
forum where the entire world hears what we say.
    Nothing would hurt Israel more, by the way, or hurt our 
interests or any of our allies' interests if we decided--if 
another country decided, because we stopped making payments to 
the United Nations, if someone decided to challenge our 
position on the Security Council. They could say that the U.S. 
doesn't take its responsibility to the international community 
seriously. Why should it continue to have a permanent seat on 
the Security Council?
    Imagine if we didn't have a veto. Imagine what we would not 
have been able to do on behalf of our interests and our allies' 
interests. We have to stand up for what we believe in as a 
nation, and we need to do it in the venue that gives us the 
loudest and strongest voice.
    I thank you.
    Chairman Ros-Lehtinen. Thank you. I thank the gentleman.
    Mr. Carnahan, that was a bloodless coup d'etat. I dethroned 
you. You are our very able partner at the U.N. with Ms. 
Buerkle.
    You are recognized. You are our last speaker. We will then 
vote on the Berman substitute and then go on to the underlying 
bill. Mr. Carnahan is recognized.
    Mr. Carnahan. Thank you, Madam Chair and Ranking Member.
    It is with great respect--I just want to go on record--I 
cannot support your U.N. reform bill without Ranking Member 
Berman's substitute language. Many of us here want to see 
continued reforms throughout the U.N. system, but not retreat. 
And none of us, including me, condone many of the actions that 
we have heard about that have gone on at the U.N. We have heard 
over time but also we have heard recited here today.
    But the best way--the best way to push reforms and advance 
our core values and beliefs is through responsible, effective 
engagement and by meeting our financial obligations. The Bush 
administration policy of underfunding those obligations to the 
U.N., and adhering to a policy of disengagement throughout the 
U.N. system damaged our standing at the U.N. and around the 
world and brought our perception around the world to its lowest 
levels on record.
    The bill would turn back the clock to these Bush era 
policies of disengagement, undermine our credibility, weaken 
our ability to advocate for reform, and inhibit our ability to 
champion our values and will put at risk U.S. national security 
interests. I believe that anti-U.S., anti-democratic, and anti-
reform contingents at the U.N. would think this kind of 
disengagement was great, because it is like us taking our 
players off the field and putting our agenda at a disadvantage.
    While far from perfect, the record of accomplishment over 
the past several years proves that a policy of engagement is 
far more successful than one of disengagement. Among a few of 
the successes--think about it--the U.S. engagement; critical 
structural reforms implemented; creating U.N. women, 
streamlining women's programs throughout the U.N. system; 
serious management reforms, including higher ethical standards 
and whistle-blower protections; groundbreaking U.N. Security 
Council actions on Iran and North Korea; and forcing Iran to 
give up its seat on the Human Rights Council.
    Key accomplishments at the Human Rights Council include 
resolutions on freedom of expression, assembly, and 
discrimination; creation of the human rights monitoring 
mechanisms for Cote d'Ivoire, Libya, Iran, and Syria; and 
positive steps forward on reducing a number of anti-Israel 
resolutions on the Council.
    And for those of my colleagues concerned about our ally 
Israel, talk to any of the representatives of the country of 
Israel. I am sure you will hear from them their strong support 
for full-strength U.S. involvement at the U.N. and not a 
watered-down U.S. engagement.
    So, with that, we still have progress to be made at the 
U.N., but our reputation, our ability to affect change, and 
these accomplishments prove that a policy of engagement is far 
better than a policy of disengagement. This bill is not in our 
national interest, and I urge that we support the substitute 
language of Ranking Member Berman.
    Chairman Ros-Lehtinen. I thank the gentleman.
    Mr. Cardoza is recognized. He is going to yield time to Mr. 
Ackerman.
    Mr. Cardoza. Thank you, Madam Chair. I would like to yield 
such time as he may consume to my friend and colleague from New 
York.
    Mr. Ackerman. I thank the gentleman. I just need a minute 
or so to wrap up.
    First, a lot of the justification of this bill is 
attributed to trying to help Israel. I think we have all noted, 
especially recently, that Israel gets unjustly blamed for an 
awful lot of things in this world. I didn't think that this 
bill by the majority should be one of them.
    There is no justification to pin this on Israel. If you 
want to pass it, pass it on your own arguments, but don't lay 
this at Israel's feet. Talk to the Israelis if you really want 
to know what they think about it.
    Secondly, one of our colleagues brought up a question--I 
guess it was more in tone of trying to discredit the existence 
of the United Nations by its funding source. I was quite 
surprised. I don't think you should jump to a conclusion that 
just because the Rockefellers are Republicans or just because 
they are rich that makes them greedy. They did not donate the 
property for the United Nations to get a tax credit.
    You may find it shocking, but the United Nations is not a 
501(c)(3) charity designated entity of the United States. 
Surprise, surprise. But your legislation seems to treat it as 
such, and you would deny it the right to exist because you 
might disagree with some of the things that it does on behalf 
of its total membership, which I disagree with also from time 
to time.
    The United Nations is an important place. It doesn't do 
everything right. We don't do everything right. I don't do 
everything right. I don't know anybody that does everything 
right. But we have to strive to make things better, especially 
something that is set up with the intent of making things 
better in the world. That is the purpose of the United Nations.
    We shouldn't be looking because we disagree with some of 
the things that occur there or the votes--I disagree with some 
of the votes that are done here--we don't want to do away with 
the Congress, or do we?
    We are starting another movement.
    This approach is basically if you don't like what is going 
on in a place that we have membership with the entire 
international community that the direction we should take is 
just cut and run, cut the money and run away. That is what this 
bill does. It is cut and run. It is not stand and fight for the 
things in which we believe to try to make the world a better 
place, to convince players that are not decent players that 
they should become better players and to resolve conflicts by 
peaceful means. Just cut and run. Starve the beast. Take away 
the money. Let's get out.
    Do you know who would be happy with this strategy, who 
would gladly vote for this bill? If you are looking for 
international votes for this bill, do you know who wants it? 
The countries that get sanctioned by the U.N.
    The Iranians love this bill. No U.S. involvement in the 
U.N., no U.N. to sanction them, no countries united to deprive 
them of the ability to do the things that they are looking to 
do that are rather dark and sinister. The Iranians will vote 
for this bill. Give them a chance.
    The Libyans will vote for this bill. They don't like the 
U.N. either. They don't want us involved. The Syrians would 
love us out. The Cubans would love us out. The North Koreans 
would love us out.
    These are the supporters of this dark bill. If you are 
looking for support for this bill, look to those countries. 
Don't look to this side of the aisle.
    I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you.
    Hearing no further request for time, the question occurs 
on----
    Mr. Berman. Madam Chair.
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Berman. I ask unanimous consent to include in the 
record----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Berman [continuing]. A letter from the Secretary of 
State and the Public Opinion Strategies and Hart Research 
Associates poll on----
    Chairman Ros-Lehtinen. Without objection.
    [The information referred to follows:]<greek-l>Sec. of 
State deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Chairman Ros-Lehtinen. And if I could put also in the 
record Ambassador Bolton's enthusiastic support for this bill. 
I don't know where it came out----
    Mr. Berman. He is not under instructions any longer.
    Chairman Ros-Lehtinen. Many op-eds that he has written in 
favor of this bill.
    But if we are going to put in things for the record, 
without objection, let that be in there as well.
    [The information referred to follows:]<greek-l>Ros-
Lehtinen--The Weekly Standard deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ----------                              

    Chairman Ros-Lehtinen. Hearing no further request for 
recognition, the question occurs on the Berman substitute 
amendment. All those in favor, say aye. All those opposed, no.
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    Having concluded consideration of the Berman substitute and 
hearing no further amendment, the question occurs on agreeing 
to the bill, H.R. 2829, as amended. The clerk will call the 
roll. Aye.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith.
    Mr. Smith. Aye.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton.
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Gallegly off no, on aye.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Aye.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo.
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce.
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    [No response.]
    Ms. Carroll. Mr. Wilson.
    Mr. Wilson of South Carolina. Aye.
    Ms. Carroll. Mr. Wilson votes aye.
    Mr. Mack.
    Mr. Mack. Aye.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry.
    [No response.]
    Ms. Carroll. Mr. McCaul.
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe.
    Mr. Poe. Aye.
    Ms. Carroll. Mr. Poe votes aye.
    Mr. Bilirakis.
    Mr. Bilirakis. Aye.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Mrs. Schmidt.
    Mrs. Schmidt. Aye.
    Ms. Carroll. Mrs. Schmidt votes aye.
    Mr. Johnson.
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera.
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly.
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin.
    [No response.]
    Ms. Carroll. Mr. Marino.
    Mr. Marino. Aye.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan.
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle.
    Ms. Buerkle. Aye.
    Ms. Carroll. Ms. Buerkle votes aye.
    Mrs. Ellmers.
    Mrs. Ellmers. Aye.
    Ms. Carroll. Mrs. Ellmers votes aye.
    Mr. Turner.
    Mr. Turner. Aye.
    Ms. Carroll. Mr. Turner votes aye.
    Mr. Berman.
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman.
    Mr. Ackerman. No.
    Ms. Carroll. Mr. Ackerman votes no.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Mr. Sherman.
    Mr. Sherman. No.
    Ms. Carroll. Mr. Sherman votes no.
    Mr. Engel.
    Mr. Engel. No.
    Ms. Carroll. Mr. Engel votes no.
    Mr. Meeks.
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan.
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Mr. Sires.
    [No response.]
    Ms. Carroll. Mr. Connolly.
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch.
    Mr. Duetch. No.
    Ms. Carroll. Mr. Deutch votes no.
    Mr. Cardoza.
    Mr. Cardoza. No.
    Ms. Carroll. Mr. Cardoza votes no.
    Mr. Chandler.
    [No response.]
    Ms. Carroll. Mr. Higgins.
    Mr. Higgins. No.
    Ms. Carroll. Mr. Higgins votes no.
    Ms. Schwartz.
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes no.
    Mr. Murphy.
    [No response.]
    Ms. Carroll. Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. No.
    Ms. Carroll. Ms. Bass votes no.
    Mr. Keating.
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline.
    Mr. Cicilline. No.
    Ms. Carroll. Mr. Cicilline votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Griffin.
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Chairman Ros-Lehtinen. Mr. Fortenberry wanted us to wait, 
but I am sorry. We know how he feels about the bill anyway.
    The clerk will call the vote.
    Ms. Carroll. Madam Chair, on that vote there are 23 ayes, 
and 15 noes.
    Chairman Ros-Lehtinen. Thank you so much.
    The ayes have it. The bill is agreed to, and without 
objection the motion to reconsider is laid upon the table. 
Without objection, the bill, as amended, will be reported 
favorably to the House as a single amendment in the nature of a 
substitute incorporating the amendments adopted by the 
committee; and the staff is directed to make technical and 
conforming changes.
    Having concluded today's business, I want to thank all of 
our members and the staff for the hard work and the cooperation 
that went into this markup.
    And, with that, the committee stands adjourned.
    [Whereupon, at 3:38 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
